Audit Report




OIG-11-101
SAFETY AND SOUNDNESS: Failed Bank Review of Atlantic Bank
& Trust
September 14, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                             September 14, 2011


             OIG-11-101

             MEMORANDUM FOR JOHN G. WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                  Susan L. Barron /s/
                                    Director, Banking Audits

             SUBJECT:               Failed Bank Review of Atlantic Bank & Trust, Charleston,
                                    South Carolina


             This memorandum presents the results of our review of the failure of Atlantic Bank
             & Trust (Atlantic) located in Charleston, South Carolina. We are providing the
             results of this review for your information since the Office of the Comptroller of the
             Currency (OCC) assumed regulatory responsibilities for federal savings associations
             pursuant to P.L. 111-203. Atlantic was established in 2007 and operated four
             facilities: a main office in Charleston; an operations center in North Charleston; and
             two full service branch offices in Myrtle Beach, South Carolina, and Savanna,
             Georgia. Atlantic was wholly owned by Atlantic Banc Holdings, Inc., a unitary non-
             diversified savings and loan holding company. The Office of Thrift Supervision
             (OTS) closed Atlantic and appointed the Federal Deposit Insurance Corporation
             (FDIC) as receiver on June 3, 2011. As of March 31, 2011, Atlantic had
             approximately $208 million in total assets and $191.6 million in total deposits.
             FDIC estimated that the loss to the Deposit Insurance Fund is $36.4 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Atlantic that was limited to (1) ascertaining the grounds
             identified by OTS for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver and (2) reviewed OTS reports of examination, and
             (3) interviewed OTS examination personnel.

             We conducted this performance audit in June 2011 in accordance with generally
             accepted government auditing standards. Those standards require that we plan and
             perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
             basis for our findings and conclusions based on our audit objectives. We believe
OIG-11-101
Page 2

that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Causes of Atlantic Bank and Trust’s Failure
OTS appointed FDIC as receiver based on the following grounds: (1) the Institution
was undercapitalized, and had materially failed to implement a capital restoration plan;
(2) the Institution was critically undercapitalized; and (3) the Institution had
substantially insufficient capital.

The primary causes of Atlantic’s failure were its significant loan growth in the
residential loan portfolio and higher-risk non-homogenous lending, including loans
secured by land and commercial real estate. Its underwriting and credit administration
practices were deficient. Specifically, Atlantic’s management originated a substantial
number of higher-risk loans with insufficient collateral and cash flows. As of
March 31, 2010, approximately 52 percent of the entire loan portfolio consisted of
loans with interest-only repayment terms. Problems with repayments and collateral
coverage became more prevalent as those loans aged. Atlantic originated the majority
of these loans before and during the initial stages of the current economic downturn.
These factors resulted in significant operating losses that severely weakened the
bank’s capital position and, ultimately, led to the bank’s failure.

Conclusion
Based on our review of the causes of Atlantic’s failure and the grounds identified
by OTS for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OTS.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for their information
and an opportunity to comment. In its response, OCC reiterated our findings and
conclusions. The response is provided as Attachment 1. A list of the recipients of
this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
J. Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-11-101

       Attachment 1
Management Response
                                                   OIG-11-101

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
